Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




MEDICARE COMPLIANCE REVIEW
    OF PRINCETON BAPTIST
    MEDICAL CENTER FOR
CALENDAR YEARS 2010 AND 2011

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    Lori S. Pilcher
                                               Regional Inspector General

                                                        April 2014
                                                      A-04-12-00084
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

Princeton Baptist Medical Center did not fully comply with Medicare requirements for billing
inpatient and outpatient services, resulting in estimated overpayments of approximately
$472,000 over 2 years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and other data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represents 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

The objective of our review was to determine whether Princeton Baptist Medical Center
(Princeton) complied with Medicare requirements for billing inpatient and outpatient services on
selected types of claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay. CMS pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification.

Princeton is a 499-bed acute care facility located in Birmingham, Alabama. Medicare paid
Princeton approximately $124 million for 12,757 inpatient and 39,584 outpatient claims for
services provided to beneficiaries during CYs 2010 and 2011 based on CMS’s National Claims
History data.

Our audit covered $9,384,096 in Medicare payments to Princeton for 1,191 claims that were
potentially at risk for billing errors. We selected a stratified random sample of 139 claims with
payments totaling $1,399,833 for review. These 139 claims had dates of service in CYs 2010 or
2011 and consisted of 127 inpatient claims and 12 outpatient claims.

WHAT WE FOUND

Princeton complied with Medicare billing requirements for 117 of the 139 inpatient and
outpatient claims we reviewed. However, Princeton did not fully comply with Medicare billing
requirements for the remaining 22 claims, resulting in overpayments of $114,019 for CYs 2010
and 2011 (audit period). Specifically, 20 inpatient claims had billing errors, resulting in
overpayments of $112,319, and 2 outpatient claims had billing errors, resulting in overpayments


Medicare Compliance Review of Princeton Baptist Medical Center (A-04-12-00084)                      i
of $1,700. These errors occurred primarily because Princeton did not have adequate controls to
prevent the incorrect billing of Medicare claims within the selected risk areas that contained
errors.

On the basis of our sample results, we estimated that Princeton received overpayments of at least
$471,654 for the audit period.

WHAT WE RECOMMEND

We recommend that Princeton:

    •   refund to the Medicare program $471,654 in estimated overpayments for claims that it
        incorrectly billed for the audit period and

    •   strengthen controls to ensure full compliance with Medicare requirements.

PRINCETON BAPTIST MEDICAL CENTER COMMENTS

In written comments on our draft report, Princeton disagreed with our recommendations. It
requested that we amend our first recommendation to remove extrapolation completely and to
decrease $471,654 in estimated overpayments to $45,144 in estimated overpayments net of
estimated Part B offsets. In regard to our second recommendation, Princeton asserted that it was
substantially in compliance with Medicare billing guidelines.

Princeton objected to our use of nonphysician CMS Medicare Administrative Contractor (MAC)
medical review staff and to our inability to reduce overpayments by potential Part B
reimbursements. Furthermore, Princeton specifically disputed findings related to nine claims
incorrectly billed as inpatient and two claims having incorrectly billed DRG codes. It
commented that its independent, third-party physicians and certified coders reviewed and agreed
with the original coding on these claims. Princeton also stated that we did not report specific
actionable items, that we did not identify clear criteria used, and that we had no basis, other than
a difference of opinion, for denial of the disputed claims.

Additionally, Princeton objected to our use of extrapolation of the sample results to the sampling
frame and consequent recommendation of a $471,654 refund in estimated overpayments for CYs
2010 and 2011 as unjust and fundamentally unfair. Princeton also stated that it did not “have
enough information to agree or disagree with our assertion that extrapolation is statistically
valid” and that “extrapolation potentially violates [its] due process rights because extrapolation
… precludes [its] rights to appeal denied claims.”

OUR RESPONSE

We stand by the MAC medical review staff’s determinations and the auditors’ professional
judgments that Princeton did not fully comply with Medicare billing requirements for 22 claims.
As stated in the report, we were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because Princeton had not billed and the MAC had not


Medicare Compliance Review of Princeton Baptist Medical Center (A-04-12-00084)                     ii
adjudicated these services prior to the issuance of our report. We also maintain that the claims
that we identified as errors did not comply with the criteria cited and did not merely represent a
difference of opinion. Rather, they represented specific actionable items that warranted our
recommendations.

As the hospital compliance review initiative has matured, we have refined our audit
methodologies. Some reviews use statistical sampling and estimation techniques to draw
conclusions about a larger portion of a hospital’s claims while other reviews use judgmental
sampling. Each hospital review is unique, and the sampling method used in each of these
reviews will vary. For this reason, we review different risk areas at different hospitals and use
both statistical and nonstatistical methods for selecting our samples.

In response to Princeton’s objections to our statistical sampling and estimation, Federal courts
have established the use of statistical sampling and estimation as a viable audit technique.
Questioning whether the sample could have been more precise or optimal does not indicate that
our methodology was invalid. We properly executed our statistical sampling methodology in
that we have defined our sampling frame and sample unit, randomly selected our sample, applied
relevant criteria in evaluating the sample, and applied the correct formulas for the estimation.

With respect to sample size, we point to the Medicare Program Integrity Manual, which indicates
that it is neither possible nor desirable to specify a minimum sample size that applies to all
situations. A challenge to the validity of the sample that is sometimes made is that the particular
sample size is too small to yield meaningful results. Such a challenge is without merit as it fails
to take into account all of the other factors that are involved in the sample design. As sample
sizes decrease so does the estimated overpayment amount at the lower limit of the confidence
interval; thus giving the benefit of a smaller sample to the Medicare provider.

During the course of our audit, we discussed with Princeton officials our plans to use statistical
sampling, and we recently provided them with our sampling plan, sampling frame, sample,
random numbers, seed number, input to RAT-STATS for appraisal, and output from RAT-
STATS.

Furthermore, our use of statistical sampling by no means removes Princeton’s right to appeal the
individual determinations on which the estimation is based through the normal appeals process.

Therefore, we continue to recommend that Princeton refund to the Medicare program $471,654
in estimated overpayments for CYs 2010 and 2011 and that it strengthen controls to ensure full
compliance with Medicare requirements.




Medicare Compliance Review of Princeton Baptist Medical Center (A-04-12-00084)                       iii
                                                     TABLE OF CONTENTS

INTRODUCTION .............................................................................................................................1

          Why We Did This Review .....................................................................................................1

          Objective ................................................................................................................................1

          Background ............................................................................................................................1
                The Medicare Program ..............................................................................................1
                Hospital Inpatient Prospective Payment System .......................................................1
                Hospital Outpatient Prospective Payment System .....................................................1
                Hospital Claims at Risk for Incorrect Billing ............................................................2
                Medicare Requirements for Hospital Claims and Payments .....................................2
                Princeton Baptist Medical Center ..............................................................................2

          How We Conducted This Review..........................................................................................3

FINDINGS             ....................................................................................................................................3

          Billing Errors Associated With Inpatient Claims ..................................................................3
                  Incorrectly Billed as Inpatient ....................................................................................4
                  Incorrectly Billed Diagnosis-Related Group Codes ..................................................4
                  Manufacturer Credit for a Replaced Medical Device Not Obtained .........................4
                  Incorrectly Billed as a Separate Inpatient Stay .............................................................5

          Billing Errors Associated With Outpatient Claims................................................................5
                  Incorrectly Billed Healthcare Common Procedure Coding System Codes ...............5

          Overall Estimate of Overpayments ........................................................................................6

RECOMMENDATIONS ...................................................................................................................6

PRINCETON BAPTIST MEDICAL CENTER COMMENTS ........................................................6

OFFICE OF INSPECTOR GENERAL RESPONSE ........................................................................7

APPENDIXES

       A: Audit Scope and Methodology ...........................................................................................9

       B: Sample Design and Methodology .......................................................................................11

        C: Sample Results and Estimates.............................................................................................14




Medicare Compliance Review of Princeton Baptist Medical Center (A-04-12-00084)                                                                       iv
      D: Results of Review by Risk Area .........................................................................................15

      E: Princeton Baptist Medical Center Comments .....................................................................16




Medicare Compliance Review of Princeton Baptist Medical Center (A-04-12-00084)                                                v
                                          INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and other data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represents 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Princeton Baptist Medical Center (Princeton) complied
with Medicare requirements for billing inpatient and outpatient services on selected types of
claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services




Medicare Compliance Review of Princeton Baptist Medical Center (A-04-12-00084)                       1
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

    •   inpatient short stays,

    •   inpatient and outpatient manufacturer credits for replaced medical devices, and

    •   inpatient claims billed with high-severity-level DRG codes.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items and services that “are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider (§ 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No. 100-
04, chapter 1, § 80.3.2.2). In addition, the Manual states that providers must use HCPCS codes
for most outpatient services (chapter 23, § 20.3).

Princeton Baptist Medical Center

Princeton is a 499-bed acute care facility located in Birmingham, Alabama. According to CMS’s
National Claims History files, Medicare paid Princeton approximately $124 million for 12,757
inpatient and 39,584 outpatient claims for services provided to beneficiaries during CYs 2010
and 2011.




1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.



Medicare Compliance Review of Princeton Baptist Medical Center (A-04-12-00084)                                      2
HOW WE CONDUCTED THIS REVIEW

Our audit covered $9,384,096 in Medicare payments to Princeton for 1,191 claims that were
potentially at risk for billing errors. We selected a stratified random sample of 139 claims with
payments totaling $1,399,833 for review. These 139 claims had dates of service in CYs 2010 or
2011 and consisted of 127 inpatient claims and 12 outpatient claims. We focused our review on
the risk areas that we identified as a result of prior OIG reviews at other hospitals. We evaluated
compliance with selected billing requirements and subjected 11 claims to medical review to
determine whether the services were medically necessary. This report focuses on selected risk
areas and does not represent an overall assessment of all claims submitted by Princeton for
Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details on our scope and methodology.

                                               FINDINGS

Princeton complied with Medicare billing requirements for 117 of the 139 inpatient and
outpatient claims we reviewed. However, Princeton did not fully comply with Medicare billing
requirements for the remaining 22 claims, resulting in overpayments of $114,019 for CYs 2010
and 2011 (audit period). Specifically, 20 inpatient claims had billing errors, resulting in
overpayments of $112,319, and 2 outpatient claims had billing errors, resulting in overpayments
of $1,700. These errors occurred primarily because Princeton did not have adequate controls to
prevent the incorrect billing of Medicare claims within the selected risk areas that contained
errors.

Based on our sample results, we estimated that Princeton received overpayments of at least
$471,654 for the audit period. See Appendix B for details on our sample design and
methodology, Appendix C for details on our sample results and estimates, and Appendix D for
the results of our review by risk area.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

Princeton incorrectly billed Medicare for 20 of 127 sampled inpatient claims, which resulted in
overpayments of $112,319.




Medicare Compliance Review of Princeton Baptist Medical Center (A-04-12-00084)                    3
Incorrectly Billed as Inpatient

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, § 1862(a)(1)(A)).

For 11 of the 127 sampled claims, Princeton incorrectly billed Medicare Part A for beneficiary
stays that it should have billed as outpatient or outpatient with observation services. Princeton
officials stated that the hospital followed a clinical evaluation process, following Medicare
guidance and physician documentation when determining patient status. As a result of these
errors, Princeton received overpayments of $71,613. 2

Incorrectly Billed Diagnosis-Related Group Codes

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, § 1862(a)(1)(A)). In addition, the Manual states: “In order to be
processed correctly and promptly, a bill must be completed accurately” (chapter 1, § 80.3.2.2).

For 7 of the 127 sampled claims, Princeton billed Medicare for incorrect DRG codes. For
example, Princeton coded hypertensive heart and chronic kidney disease as the principle
diagnosis for one sample item; however, Princeton staff members were unable to locate
supporting documentation for chronic kidney disease. As a result, the principle diagnosis
changed, which caused the DRG code to change as well. Princeton officials indicated that these
errors occurred because of the technical requirements of coding and the interpretations of
complicated medical records. As a result of these errors, Princeton received overpayments of
$32,332.

Manufacturer Credit for a Replaced Medical Device Not Obtained

Federal regulations require reductions in the IPPS payments for the replacement of an implanted
device if (1) the device is replaced without cost to the provider, (2) the provider receives full
credit for the device cost, or (3) the provider receives a credit equal to 50 percent or more of the
device cost (42 CFR § 412.89). The Manual states that to bill correctly for a replacement device
that was provided with a credit, hospitals must code Medicare claims with a combination of
condition code 49 or 50, along with value code “FD” (chapter 3, § 100.8). In addition, Federal
regulations state, “All payments to providers of services must be based on the reasonable cost of




2
 Princeton may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the Medicare
administrative contractor prior to the issuance of our report.




Medicare Compliance Review of Princeton Baptist Medical Center (A-04-12-00084)                                     4
services…” (42 CFR § 413.9). The CMS Provider Reimbursement Manual (PRM) reinforces
these requirements in additional detail (Pub. No. 15-1). 3

For 1 of the 127 sampled claims, Princeton did not obtain a credit for a replaced medical device
for which a credit was available under the terms of the manufacturer’s warranty. Princeton
officials stated that the error occurred because of an oversight. Both the device and lead were
removed; the device was an upgrade and not eligible for a credit. Only the lead was potentially
eligible for a credit. However, Princeton staff did not return the lead to the manufacturer and
request the credit. As a result of this error, Princeton received an overpayment of $5,203.

Incorrectly Billed as a Separate Inpatient Stay

The Manual, chapter 3, section 40.2.5, states:

         When a patient is discharged/transferred from an acute care Prospective Payment
         System (PPS) hospital, and is readmitted to the same acute care PPS hospital on
         the same day for symptoms related to, or for evaluation and management of, the
         prior stay’s medical condition, hospitals shall adjust the original claim generated
         by the original stay by combining the original and subsequent stay onto a single
         claim.

For 1 of the 127 sampled claims, Princeton billed Medicare separately for a related discharge and
readmission within the same day. Princeton officials stated that the error occurred because of
human error in reviewing the billing information. As a result of this error, Princeton received an
overpayment of $3,171.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

Princeton incorrectly billed Medicare for 2 of 12 sampled outpatient claims, which resulted in
overpayments of $1,700.

Incorrectly Billed Healthcare Common Procedure Coding System Codes

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (§ 1833(e)). The Manual states: “In order to
be processed correctly and promptly, a bill must be completed accurately” (chapter 1,
§ 80.3.2.2).


3
 The PRM states: “Implicit in the intention that actual costs be paid to the extent they are reasonable is the
expectation that the provider seeks to minimize its costs and that its actual costs do not exceed what a prudent and
cost conscious buyer pays for a given item or service” (part I, § 2102.1). Section 2103 further defines prudent buyer
principles and states that Medicare providers are expected to pursue free replacements or reduced charges under
warranties. Section 2103(C)(4) provides the following example: “Provider B purchases cardiac pacemakers or their
components for use in replacing malfunctioning or obsolete equipment, without asking the supplier/manufacturer for
full or partial credits available under the terms of the warranty covering the replaced equipment. The credits or
payments that could have been obtained must be reflected as a reduction of the cost of the equipment.”



Medicare Compliance Review of Princeton Baptist Medical Center (A-04-12-00084)                                     5
For 2 of the 12 sampled claims, Princeton submitted the claims to Medicare with incorrect
HCPCS codes. Princeton officials attributed the duplicate codes to human error. As a result of
these errors, Princeton received overpayments of $1,700.

OVERALL ESTIMATE OF OVERPAYMENTS

On the basis of our sample results, we estimated that Princeton received overpayments of at least
$471,654 for the audit period.

                                       RECOMMENDATIONS

We recommend that Princeton:

    •   refund to the Medicare program $471,654 in estimated overpayments for claims that it
        incorrectly billed for the audit period and

    •   strengthen controls to ensure full compliance with Medicare requirements.

                 PRINCETON BAPTIST MEDICAL CENTER COMMENTS

In written comments on our draft report, Princeton disagreed with our recommendations. It
requested that we amend our first recommendation to remove extrapolation completely and to
decrease $471,654 in estimated overpayments to $45,144 in estimated overpayments net of
estimated Part B offsets. In regard to our second recommendation, Princeton asserted that it was
substantially in compliance with Medicare billing guidelines.

Princeton objected to our use of nonphysician CMS Medicare Administrative Contractor (MAC)
medical review staff and to our inability to reduce overpayments by potential Part B
reimbursements. Furthermore, Princeton specifically disputed findings related to nine claims
incorrectly billed as inpatient and two claims having incorrectly billed DRG codes. It
commented that its independent, third-party physicians and certified coders reviewed and agreed
with the original coding on these claims. Princeton also stated that we did not report specific
actionable items, that we did not identify clear criteria used, and that we had no basis, other than
a difference of opinion, for denial of the disputed claims.

Additionally, Princeton objected to our use of extrapolation of the sample results to the sampling
frame and consequent recommendation of a $471,654 refund in estimated overpayments for CYs
2010 and 2011 as unjust and fundamentally unfair. Princeton also stated that it did not “have
enough information to agree or disagree with our assertion that extrapolation is statistically
valid” and that “extrapolation potentially violates [its] due process rights because extrapolation
… precludes [its] rights to appeal denied claims.” With the exception of medical record
information, which we redacted, Princeton’s comments are included in their entirety as Appendix
E.




Medicare Compliance Review of Princeton Baptist Medical Center (A-04-12-00084)                     6
                          OFFICE OF INSPECTOR GENERAL RESPONSE

We stand by the MAC medical review staff’s determinations and the auditors’ professional
judgments that Princeton did not fully comply with Medicare billing requirements for 22 claims.
As stated in the report, we were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because Princeton had not billed and the MAC had not
adjudicated these services prior to the issuance of our report. We also maintain that the claims
that we identified as errors did not comply with the criteria cited and did not merely represent a
difference of opinion. Rather, they represented specific actionable items that warranted our
recommendations.

As the hospital compliance review initiative has matured, we have refined our audit
methodologies. Some reviews use statistical sampling and estimation techniques to draw
conclusions about a larger portion of a hospital’s claims while other reviews use judgmental
sampling. Each hospital review is unique, and the sampling method used in each of these
reviews will vary. For this reason, we review different risk areas at different hospitals and use
both statistical and nonstatistical methods for selecting our samples.

In response to Princeton’s objections to our statistical sampling and estimation, Federal courts
have established the use of statistical sampling and estimation as a viable audit technique. 4
Questioning whether the sample could have been more precise or optimal does not indicate that
our methodology was invalid. 5 We properly executed our statistical sampling methodology in
that we have defined our sampling frame and sample unit, randomly selected our sample, applied
relevant criteria in evaluating the sample, and applied the correct formulas for the estimation.

With respect to sample size, we point to the Medicare Program Integrity Manual, which indicates
that it is neither possible nor desirable to specify a minimum sample size that applies to all
situations. A challenge to the validity of the sample that is sometimes made is that the particular
sample size is too small to yield meaningful results. Such a challenge is without merit as it fails
to take into account all of the other factors that are involved in the sample design. As sample
sizes decrease so does the estimated overpayment amount at the lower limit of the confidence
interval, thus giving the benefit of a smaller sample to the Medicare provider. 6

During the course of our audit, we discussed with Princeton officials our plans to use statistical
sampling, and we recently provided them with our sampling plan, sampling frame, sample,
random numbers, seed number, input to RAT-STATS for appraisal, and output from RAT-
STATS.




4
    Chaves County Home Health Service, Inc. v. Sullivan, 931 F.2d 914 (D.C. Cir. 1991).
5
    Miniet v Sebelius, No. 10-24127-CIV (S.D. Fla. 2012).
6
    Schuldt Chiropractic Wellness Center v Sebelius, No. 8:13CV4 (D. Neb. 2014).




Medicare Compliance Review of Princeton Baptist Medical Center (A-04-12-00084)                       7
Furthermore, our use of statistical sampling by no means removes Princeton’s right to appeal the
individual determinations on which the estimation is based through the normal appeals process. 7
Therefore, we continue to recommend that Princeton refund to the Medicare program $471,654
in estimated overpayments for CYs 2010 and 2011 and that it strengthen controls to ensure full
compliance with Medicare requirements.




7
    Pruchniewski v. Leavitt, No. 08:04-CV-2200-T-23TBM (M.D. Fla 2006).



Medicare Compliance Review of Princeton Baptist Medical Center (A-04-12-00084)                 8
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $9,384,096 in Medicare payments to Princeton for 1,191 claims that were
potentially at risk for billing errors. We selected a stratified random sample of 139 claims with
payments totaling $1,399,833 for review. These 139 claims had dates of service in CYs 2010 or
2011 and consisted of 127 inpatient claims and 12 outpatient claims.

We focused our review on the risk areas that we identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements and subjected 11
claims to medical review to determine whether the services were medically necessary.

We limited our review of Princeton’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by Princeton for Medicare reimbursement.

We conducted our fieldwork in Birmingham, Alabama, from November 2012 through May
2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted Princeton’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for CYs 2010 and 2011 (audit period);

    •   obtained information on known credits for replaced cardiac medical devices from the
        device manufacturers for the audit period;

    •   used computer matching, data mining, and analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

    •   selected a stratified random sample of 139 claims (127 inpatient and 12 outpatient) for
        detailed review;

    •   reviewed available data from CMS’s Common Working File for the sampled claims to
        determine whether the claims had been cancelled or adjusted;



Medicare Compliance Review of Princeton Baptist Medical Center (A-04-12-00084)                      9
    •   reviewed the itemized bills and medical record documentation provided by Princeton to
        support the sampled claims;

    •   requested that Princeton conduct its own review of the sampled claims to determine
        whether the services were billed correctly;

    •   reviewed Princeton’s procedures for submitting Medicare claims;

    •   used CMS’s Medicare contractor medical review staff to determine whether 11 sampled
        claims met medical necessity requirements;

    •   discussed the incorrectly billed claims with Princeton personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments;

    •   used the results of the sample review to calculate the estimated Medicare overpayments
        to Princeton (Appendix C); and

    •   discussed the results of our review with Princeton officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Princeton Baptist Medical Center (A-04-12-00084)                   10
                 APPENDIX B: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population was inpatient and outpatient claims paid to Princeton for services provided to
Medicare beneficiaries during the audit period.

SAMPLING FRAME

According to CMS’s National Claims History (NCH) data, Medicare paid Princeton
$124,159,879 for 12,757 inpatient and 39,584 outpatient claims for services provided to
beneficiaries during the audit period.

We obtained a database of claims for the audit period from the NCH data totaling $63,248,571
for 4,893 inpatient and 28,804 outpatient claims in 30 risk areas.

From this initial sampling frame, we selected claims from three risk areas consisting of 3,899
claims totaling $38,930,609 for further refinement. The risk areas were:

    1. Inpatient Short Stays,

    2. Inpatient and Outpatient Manufacturer Credits for Replaced Medical Devices, and

    3. Inpatient Claims Billed With High-Severity-Level DRG Codes.

We then removed claims as follows:

    •   all $0 paid claims,

    •   all claims under review by the Recovery Audit Contractor, and

    •   all duplicate claims within individual risk areas.




Medicare Compliance Review of Princeton Baptist Medical Center (A-04-12-00084)                   11
We assigned each claim that appeared in multiple risk areas to just one risk area based on the
following hierarchy: Inpatient and Outpatient Manufacturer Credits for Replaced Medical
Devices, then Inpatient Short Stays, and then Inpatient Claims Billed With High-Severity-Level
DRG Codes. This resulted in a sampling frame of 1,191 unique Medicare claims in three risk
areas totaling $9,384,096.

                                         Risk Areas Sampled
                                                              Number of          Amount of
                         Risk Area                             Claims            Payments

    Inpatient Short Stays                                                 839       $6,457,120
    Inpatient and Outpatient Manufacturer Credits
    for Replaced Medical Devices                                           32          574,947
    Inpatient Claims Billed With High-Severity-
    Level DRG Codes                                                       320        2,352,029

       Total                                                            1,191       $9,384,096

SAMPLE UNIT

The sample unit was a Medicare paid claim.

SAMPLE DESIGN

We used a stratified random sample. We divided the sampling frame into three strata based on
the risk area.

SAMPLE SIZE

We randomly selected 139 claims as follows:

                                     Sampled Claims by Stratum

      Stratum                                Risk Area                           Sample Size
           1         Inpatient Short Stays                                           60
                     Inpatient and Outpatient Manufacturer Credits for
           2                                                                         32
                     Replaced Medical Devices
                     Inpatient Claims Billed With High-Severity-Level
           3                                                                         47
                     DRG Codes

                                      Total Sampled Claims                          139




Medicare Compliance Review of Princeton Baptist Medical Center (A-04-12-00084)                   12
SOURCE OF RANDOM NUMBERS

We generated the random numbers using the Office of Inspector General, Office of Audit
Services (OIG/OAS) statistical software.

METHOD FOR SELECTING SAMPLE UNITS

We consecutively numbered the claims within strata one and three. After generating the random
numbers for these strata, we selected the corresponding frame items. We selected all claims in
stratum two.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the amount of improper Medicare
payments in our sampling frame for Princeton for the audit period.




Medicare Compliance Review of Princeton Baptist Medical Center (A-04-12-00084)              13
                    APPENDIX C: SAMPLE RESULTS AND ESTIMATES

SAMPLE RESULTS

                                                                        Number of
                                                                        Improperly
                Frame                                       Total          Billed     Value of
                 Size        Value of        Sample       Value of       Claims in Overpayments
  Stratum      (Claims)       Frame           Size        Sample          Sample     in Sample
     1              839      $6,457,120            60      $466,370               12      $74,783
     2               32         574,947            32       574,948                4       20,988
     3              320       2,352,029            47       358,515                6       18,248
   Total          1,191      $9,384,096          139     $1,399,833               22     $114,019

ESTIMATES

                     Estimated Value of Overpayments for the Audit Period
                      Limits Calculated for a 90-Percent Confidence Interval

                                 Point Estimate               $1,190,954
                                 Lower limit                   $ 471,654
                                 Upper limit                  $1,910,254




Medicare Compliance Review of Princeton Baptist Medical Center (A-04-12-00084)                  14
                        APPENDIX D: RESULTS OF REVIEW BY RISK AREA
                                                                                          Claims
                                                                                           With     Value of
                                                     Selected      Value of Selected      Over-       Over-
                 Risk Area                           Claims            Claims            payments   payments
Inpatient

Short Stays                                                  60              $466,370          12     $74,783
Manufacturer Credits for Replaced Medical
                                                             20                445,449          2      19,288
Devices
Claims Billed With High-Severity-Level
                                                             47                358,515          6      18,248
Diagnosis-Related Group Codes
 Inpatient Totals                                           127            $1,270,334          20    $112,319


Outpatient
Manufacturer Credits for Replaced Medical
                                                             12              $129,499           2      $1,700
Devices
 Outpatient Totals                                           12              $129,499           2      $1,700


 Inpatient and Outpatient Totals                            139            $1,399,833          22    $114,019

     Notice: The table above illustrates the results of our review by risk area. In it, we have
     organized inpatient and outpatient claims by the risk areas we reviewed. However, we have
     organized this report’s findings by the types of billing errors we found at Princeton. Because we
     have organized the information differently, the information in the individual risk areas in this
     table does not match precisely with this report’s findings.




     Medicare Compliance Review of Princeton Baptist Medical Center (A-04-12-00084)                   15
                             APPENDIX E: PRINCETON BAPTIST MEDICAL CENTER RESPONSE 


ltbaptist e sy m                                                                                                              Baptist Health System
                                                                                                                           3201 Fourth Avenue South
                                                                                                                                    P 0 Box 830605
                                                                                                                         Birmingham. AL 35283-0605

                                                                                                                                   www.bhsala com

       As a Witness
  to the love of God,
                              December 20, 2013
   revealed tllrough
                         I

       Jesus Christ,          Ms. Lori. S. Pilcher
      Baptist Health          Regional Inspector General for Audit Services
                              Office of Audit Services, Region IV
System is committed      I    61 Forsyth Street SW, Suite 3T41
    to ministries that        Atlanta, GA 30303
enhance the health, 

          dignity and 
       RE: OIG draft rep01i (A-04-12-00084): Medicare Compliance Review ofPrinceton Baptist Medical
          wholeness 
         Center for Calendar Years 2010 and 2011

  of those we serve 

   through Integrity. 

                              Dear Ms. Pilcher:
        Compassion, 

          Advocacy, 
         I am writing on behalf of Princeton Baptist Medical Center (Princeton), which is in receipt of the
Resourcofuloess and           above-referenced draft audit report. Princeton appreciates the opportunity to comment on the Office of
         Excellence           Inspector General (OIG) draft report. Princeton is committed to complying with all regulations and
                              standards governing federal health care programs, and therefore embraces opportunities to improve our
                              educational, audit, and compliance programs. This includes the implementation of operational
                              procedures and controls to minimize the risk of billing errors and a strong compliance monitoring
                              program. Because of the complexity and ambiguity of the Medicare regulations, the systems required
                              to process thousands of transactions, and the necessary human component that can result in
                              unintentional errors, Princeton has established an effective compliance program to ensure, to the extent
                              reasonably possible, that the claims billed to Medicare comply with the laws and regulations. Princeton
                              has reviewed the draft report in detail and asserts that Princeton is substantially in compliance with
                              Medicare billing guidelines. Princeton has reviewed the findings and recommendations in the draft
                              report and specifically responds as follows:

                                     I.        BACKGROUND

                              The OJG did not audit Princeton due to any allegation of improper billing or compliance practices .
                              Rather, this audit was conducted as part of an ongoing national auditing initiative focused on "known
                              areas of noncompliance identified during past Office oflnspector General (OIG) reviews of hospitals/"
                              i.e., OIG targeted risk areas for hospitals across the country.

                              In this case, the OIG audit consisted of three risk areas identified in the opening letter: (1) inpatient
                              claims indicating short stays, (2) inpatient and outpatient medical devices (manufacturer credits for
                              replaced medical devices), and (3) inpatient claims with complications and comorbidities (billed with
                              high seve1ity level DRG codes). From the $124,159,879 of Medicare payments during the years 2010
                              and 2011, the OIG selected $63 ,248 ,571 of inpatient and outpatient claims from over 30 OIG identified
                              high risk areas. Only three of the risk areas were ultimately selected for audit at Princeton. To date, the

                              1
                                  OIG Audit Introduction letter dated 10/25/2012.



                                                                                                                                           1

          Medicare Compliance Review ofPrinceton Baptist Medical Center (A-04-12-00084)                                               16
           OIG has provided no specific infonnation as to how Princeton was selected as a provider, nor as to how
           the three risk areas for audit were chosen.

            From an original sampling frame of3899 claims found in the risk areas, the OIG stated that it removed
            claims that were: (1) zero dollar ($0) claims, (2) claims under review by the RAC, and {3) duplicate
            claims. A final sampling frame of 1191 claims totaling $9,384,096 was created from which 139 claims
            were drawn for audit. The OIG used a sample design as follows: "We used a stratified random sample.
            We divided the sampling frame into three strata based on the risk area." 2 The reported sample claims
            by strata are as follows:

            Table 1


                STRATUM                   ClAIM TYPE/RISK AREA                   ClAIMS            STRATUM             SAMPLE% OF
                                                                                 SAMPLED          POPUlATION           POPUlATION
                                                                                                  {Frame Size)


                   1          Inpatient Short Stays                                60                 839                 7.15%


                   2          Inpatient and Outpatient Manufacturer Credits        32                  32                  100%
                              for Replaced Medical Devices




                    3         Inpatient Claims Billed with High Severity Level      47                320                  14.7%
                              DRG Codes


            TOTAL                                                                  139                1191                 11.7%




            Both the draft report and the pre-audit workbook 3 indicate that the strata were defined pre-audit.
            However, the OIG disclosed, for the first time, in Appendix B, page 10 of the draft report that it used a
            "hierarchy" to detennine which claims would be assigned to which stratum when the claim appeared in
            multiple risk areas. The hierarchy is as follows: Inpatient and Outpatient Manufacturer Credits for
            Replaced Medical Devices, then Inpatient Short Stays, and then Inpatient Claims Billed with High
            Severity Level DRG Codes. There is no explanation as to how the hierarchy was developed, nor why
            claims with attributes of multiple strata were not excluded from the sampling frame. Though Princeton
            has requested a listing of the 1191 patients in the sample frame population, the OIG has not provided it.
            Without access to the population, Princeton does not have the ability to analyze the impact of the
            hierarchy on the stratified random sampling.




            2
             OIG Draft Report (A-04-12-00084): Medicare Compliance Review of Princeton Baptist Medico/ Center for Calendar Years 2010
            ond 2011, pg. 10.
            3
                Pre Audit Spreadsheet (filename: A04120008420 Pre-Audit Workbook 20102412) submitted to Princeton 10/25/2012 with
            patient and defined areas of "vulnerabilities by issue."




                                                                                                                                        2

Medicare Compliance Review ofPrinceton Baptist Medical Center (A-04-12-00084)                                                       17
                   II. 	      01G FINDINGS

            The OIG concluded that 22 of the 139 claims did not fully comply with Medicare billing requirements
            resulting in alleged overpayments of $114,019. Specifically, the OIG alleged that 20 inpatient claims
            had billing etTors resulting in overpayments of$112,319 and two (2) outpatient claims had billing errors
            resulting in overpayments of $1700. Based on the OIG's findings, there is an alleged 8.15% error rate
            by dollars and an alleged 15.83% error rate by claims.

            The OIG recommended not only the repayment of the $114,019 based on their audit findings, but
            through the use of extrapolation, further recommends an additional $357,635 in "estimated" overages
            resulting in a total demand of$471 ,654. Princeton takes strong exception to these recommendations.

            As with all ofthe OlG audits conducted as pat1 of this national initiative, the OIG alleged that the
            ho5pital did not have adequate controls. The OIG's recommendation to Princeton (and other hospitals
            that have been audited) is to "strengthen controls to ensure full compliance with Medicare
            requirements." No specific actionable items were included in the draft report. The OIG did not identify
            a clear criteria used, nor a basis for denial of the disputed claims other than a difference of opinion. This
            is important to note because 50% of the alleged overpayments are related to claims where the billing
            status (inpatient versus outpatient) is at issue. Nationally, this has been the subject of great debate.
            CMS has acknowledged in recent rulemaking that the determination of inpatient versus outpatient status
            is fraught with error due to a lack of clarity in the standards rather than a Jack of good controls by
            providers.

                             "So the heart {of the issue] being an urge by both the hospital communities
                             and by the beneficiary communities that we'll need a greater clarity on which
                                                                               4
                             cases are outpatient stays versus inpatient stays. "


            In essence, the OIG proposes denial of these disputed claims based a difference of opinion between the
            physician caring for the patient in real time and a nurse's retrospective review of the medical record.

                   IlL 	       CLAIMS ALLEGEDLY INCORRECTLY BILLED AS INPATIENT VERSUS
                               OUTPATIENT

                           A. Princeton respectfully disagrees with substantive findings in the OIG draft report

                   The OIG alleges that Princeton incorrectly billed Medicare Part A for beneficiary stays that should
                   have been billed as outpatient or outpatient with observation services in 11 of the 127 sampled
                   inpatient claims. Princeton concurs with the OIG on two claims. However, Princeton respectfully
                   disagrees with the findings of the OIG regarding nine of the sampled claims and intends to fully
                   appeal these claims. The prevailing reason for the disagreement is Princeton's belief that the
                   denials, which were made by non-physician reviewers retrospectively reviewing complex medical
                   decisions made by the treating physician at the time of care, are prejudiced by outcome bias and are

            4
                CMS Special Open Door Forum, Thursday, September 26, 2013.


                                                                                                                        3

Medicare Compliance Review ofPrinceton Baptist Medical Center (A-04-12-00084)                                         18
                therefore subjective and flawed . Moreover, Princeton had all claims selected in this stratum re­
                reviewed by independent third-party p hysician reviewers who arc experts in Medicare rules and
                regulations as well as patient care. These independent physician experts concluded, on the merits,
                that Princeton correctly billed as inpatient all but two of the 60 cases that were included in the
                stratum. Thus, Princeton asserts that it had only a 3.33% margin of billing error related to inpatient
                status.

                On April 3, 2013, after the independent physician reviews were completed at Princeton's expense
                and per the OIG audit protocol, Princeton officials and the physicians who conducted the reviews
                met with OIG auditors to provide the detailed clinical information below supporting Princeton's
                correct billing of patient status. After additional information was provided, the OIG declined the
                hospital's request to have the disputed cases re-reviewed by physicians. However, the draft report
                states on pages 3 and 7, that it "subjected II claims to medical review." Similarly, page 8 of the
                draft report states that it "used CMS's Medicare Contractor medical review staff to determine
                whether 11 sampled claims met medical necessity requirements." It is unclear if there was a
                separate undisclosed review or if this is merely an error whereby the disputed case number was
                inserted rather than the total number of claims reviewed.

                For example, please find below a de-identified clinical summary of a disputed claim:
                (Summaries of all nine disputed cases can be found at the end ofthis document Appendix A.)




                The information offered above and in Appendix A is presented in an effort to demonstrate that the
                patients treated at Princeton were clearly ill and in need of inpatient services. Princeton respectfully
                asks the OIG to again consider the complexity of the medical decision making involved, the need
                for physician level review to fairly evaluate physician decision making and an acknowledgement
                that the CMS billing guidelines in place at the time did not provide clear delineation between
                inpatient and outpatient status. Because of the subjective, multifactorial nature of determining
                patient status, these types of cases are difficult to audit, despite the best efforts of the professional
                auditors who completed the field work. As evidenced in OIG's recent audit report, "Medicare
                Compliance Review of St. Vincent's Medical Center for Calendar Years 2009-2010," the OIG
                obtained independent medical reviews of claims which the hospital disputed in the draft report.

                                                                                                                         4

Medicare Compliance Review ofPrinceton Baptist Medical Center (A-04-12-00084)                                        19
                   After the review, the OIG reduced the number of claims in error rrom 56 to 47, which reduced the
                   reported errors by 16%5 . The report does not provide information as to the identity of the first and
                   second set of reviewers, nor of their credentials; however, it does demonstrate that even among
                   reviewers contracted by the OIG to assist with the audits, there is error.

                   In summary, Princeton and its independent physician reviewers believe that the nine disputed cases
                   were properly billed as inpatients. A redetermination finding that these cases were properly placed
                   in inpatient status would reduce the number of incorrect clain1s from 11 to two, reduce the
                   overpayment amount from $71,612.34 to $32,475.33 (exclusive of an additional Pmt B offset, see
                   below for explanation), and would eliminate any extrapolation derived therefrom.

                        B.   The OIG should reduce the alleged overpayment amount by the Part B Offset

                   Without conceding any of the above disputed claims as inpatient, the OIG should reduce the
                   alleged overpayment amount by the amount due to the hospital under the Medicare Part B payment
                   system. There is no dispute as to the medical necessity of hospital services . The only question is
                   whether or not the hospital billed under the correct patient status. Princeton repeatedly requested
                   that the OIG offset any alleged overpayments by the Part B amount. OIG indicated that it did not
                   have the ability to calculate the Part B reimbursements. Princeton provided the OJG auditing staff
                   with the estimated Part B reimbursement so that the alleged overpayment, and the resulting
                   extrapolation, could be reasonably reduced . (See Table 2 below.)




            5
                Medicare Compliance Review of St. Vincent's Medical Cen terfor Calendar Years 2009-2010, page 10, OIG Audit #A-04-12­
            08013, December 2013 .


                                                                                                                                             5

Medicare Compliance Review ofPrinceton Baptist Medical Center (A-04-12-00084)                                                           20
                   6
            Table 2

            SAMPLE ITEM#        ALLEGED OVERPAYMENT AMOUNT                ESTIMATED PART B REIMBURSEM ENT                 NET ALLEGED OVERPAYMENT



                      9        $        4,956.87                         $      3,738.78                             $        1,218.09

                  11           s        5,440.15                         $      1,854.56                             s        3,585.60

                  15           $        2,142.96                         $      1,039 ,60                            $        1,103.36

                  16           $        3,176.32                         $       473.45                              $        2,702 .87

                  23           $       1{),121.17                        $      7,1 21.07                             $       3,000.10

                  35            $       2,601.02                         $        424.41                             s        2, 176.61

                  36            s       2,279.82                         s      1,347.66                             s          932.16

                  40            $       6,056.87                         $      1,509.85                              $       4,547 .02

                  48            ~       2 36 1.82                        ~        76100                              j __ 1,600.82

             Subtotal Claims    ~      39,137.01                         s      18,270.38                             s      20,866.63
                  in Dispute



                  37            $       2,946.84                         s        426.94                              $       2,519.90

                  38            s      29,528.49                         s     24.212.51                              s       5.315.98

             Subtotal Claims    ~      32,475.33                         s     24 ,639.45                             s       7,835.88
              in Agreement



            fOTAL ALLEGED      ,?_    7tfiJ2.34                          TOTAL ALLEGED OVERPAYMENTS NET               s      7.8,202.5 1
            OVERPAYMENTS                                                 OF OFFSETS




            6
              Note: The calculation ofthe outpatient charges in Table 2 in no way indicates that Princeton concurs with the DIG's assertion
            that all of the claims on Table 2 should be billed as outpatient. Rather, the figures are provided only to demonstrate the
            minimum offset amount.



                                                                                                                                                6

Medicare Compliance Review ofPrinceton Baptist Medical Center (A-04-12-00084)                                                              21
                The OIG declined to use the information in preparation of the draft report. Footnote 2, page 4 of the
                OIG draft report states that "the hospital may be able to rebill Medicare Part B for some services
                that would have been reasonable and necessary had the beneficiary been treated as a hospital
                outpatient rather than admitted as an inpatient. We were unable to determine the effect the billing
                Medicare Part B would have on the overpayment amount because these services have not been
                billed and adjudicated by the Medicare Administrative Contractor (MAC) prior to the issuance of
                our draft report." The statement that the cases have not been adjudicated is contrary to the OIG's
                argument. The non-physician reviewer at the MAC opened each review in the disputed cases with
                the statement, "Observation is appropriate."

                Further, Princeton cannot rebill because it disputes the accuracy of the nurse reviewers' findings.
                Thus, if Princeton reb ills, it would forfeit the right to appeal. Additionally, all of the cases reviewed
                by the OIG are outside of the 12-month timely filing window. Therefore, the claims are not
                eligible for rebill. Because the OIG had access to the Part B billing amounts and a statement of
                "adjudication" from the MAC that observation services were appropriate, it should have reduced
                the recommended demand amount.

                     C. Summary

                After detailed clinical review of the claims completed by independent physician reviewers,
                Pr inceton concurs with the OIG on two claims totaling $32,475. After reducing those claims by the
                Part B allowable payment, Princeton asserts that the overpayment amount is approximately $7836. 7

                IV. 	      CLAIMS ALLEGEDLY USI NG INCORRECT DIAGNOSIS RELATED GROUP
                           CODES

            With regard to the diagnosis related group (DRG) coding issues, the OIG alleges in its draft report that
            Princeton had seven errors. However, in the last spreadsheet provided by the OIG auditors in August
            2013, prior to the issuance of this draft, only six claims had been identified as incorrect. Of the six
            claims (Stratum 3, Samples: 6, 10, 12, 31, 40, 46), Princeton concurs with the OIG on four claims.
            However, Princeton strongly disagrees with the OIG findings on Stratum 3, Samples 40 and 46.
            Princeton provided additional coding information to the OIG and asked for reconsideration of the
            disputed claims after no less than three certified coders reviewed and agreed with the original Princeton
            coding. Below is a summary of the information which was submitted:




            7 (Sample #37 +Sample #38)- Part B offsets= $7836.




                                                                                                                           7

Medicare Compliance Review ofPrinceton Baptist Medical Center (A-04-12-00084)                                         22
                          To verify the use of this code without the   e code, we have the following resources:

                                     •	    Coding guidance from the Precyse Solutions, LLC, Medical Management Plus Incorporated, and
                                           University of Alabama Birmingham indicate that it is not appropriate to add an E code since the
                                           encephalopathy is not due to a drug. The term "toxic" and "due to drugs" index to the same code
                                           leading to an instructional note to add theE code when due to a dru g. In these cases, theE code is
                                          not applicable because the encephalopathy though to)(ic was NOT drug induced. but metabolic in
                                          ~
                                          The National Center for Biotechnology Information
                                           (http://www.ncbLnlm . n i h. goy@Jl_~BK 7402f): Gives sepsis as an example of a cause of toxi c
                                           metabolic encephalopathy. The patient may present with toxic effects of the infection.
                                           An article from E Medicine Health
                                           (tJ!.t R: Uwww . emedicinehealth. com/encep halopath,)'[Qa.&._~U'!I.ch_tm): Lists causes of metabolic
                                           ence phalopathy. Lists toxic metabo lic encephalopathy in parenthesis. These include electrolyte
                                           abnormal ities. Al so lists drug side effect s as a cause but it is not the only ca use listed.


                          Toxic metabolic encephalopathy is a type of encephalopathy that is used as a cat ch-all phrase for brain dysfunction
                          caused by infection, organ failure, or intoxication. Therefore, based on the fact that the te rm "toxic metabolic
                          encephalopathy" is documented by physicians in the medica l record, and since the term "toxic metabolic
                          encephalopathy" is listed in the Index of ICD-9-CM codes as 349.82, it is appropriate to add this code without an e
                          code when it is not related to a toxic drug induced cause, but rather a toxic metabolic cause. Thus, we do not agree
                          with the removal ofiCD-9-CM code 349.82 from the claims.

            In a spreadsheet submitted to Princeton by the OIG on August 2, 2013 copied below in Table 3
            (formatting added), the net potenti al overpayments alleged was $18,248*.

            Table 3
                    STRATUM                 SAMPLE SIZE                TOTAL VALUE OF                 NUMBER OF                         VALUE OF
                                                                          SAMPLE                   IMPROPERLY BILLED                 OVERPAYMENTS IN
                                                                                                                           8
                                                                                                    CLAIMS IN SAMPLE                        SAMPLE
            Short Stays                            60                      $466,370                            12                           $74,783

            Medical Devices                        32                      $574,947                            4                            $20,988

            MCC/CC                                 47                      $358,516                            6                          $18,248*
            TOTAL                                 139                     $1,399,833                           22                           $114.019




            In Stratum 3 (referred to as "MCC/CC" in the chart above) Princeton dis agrees with two cases valued at
            $5099 and concurs with OIG findings regarding the other four cases . Therefore, Princeton concurs with
            an overpayment of$13,149 .



            8
             This heading title was authored by the OIG and is refl ective of OIG's find ings. By rep roducing this data, Princeton in no way
            adopts the f indings therein .


                                                                                                                                                    8

Medicare Compliance Review ofPrinceton Baptist Medical Center (A-04-12-00084)                                                                      23
            The 7th claim referenced in the OIG draft report section entitled, "Incorrectly Billed Diagnosis-Related
            Group Codes" comes from Inpatient and Outpatient Manufacturer Credits for Replaced Medical
            Devices, Stratum 2, Sample #24, and therefore is not included in the stratified random sample of 47
            claims from Stratum 3. Princeton agrees that the DRG is incorrect, which resulted in an overpayment
            of $14,085. This is significant because the OIG stated that it would apply extrapolation if the alleged
            errors exceeded six cases.

            Therefore, Princeton agrees that there are five cases from Stratum 2 and Stratum 3 which relate to DRG
            changes resulting in a combined overpayment of $27,234. These errors are attributable to human error
            which can occur when interpreting complex medical records in order to translate the documentation into
            the technical coding requirements. Princeton provides ongoing education and evaluation of coders as
            part of the hospital's compliance program.

                 V.         INCORRECTLY BILLED AS SAME DAY DISCHARGE AND READMISSION

            The OIG identified one case, Sample #33, from Stratum 1where the patient was discharged and
            readmitted on the same day. Princeton concurs with the OIG's findings and agrees that the charges
            should have been bundled. Due to human error, the charges were not bundled resulting in a net
            overpayment of $3171. Princeton will continue to provide ongoing education to the billing staff
            regarding the bundling of charges that is required in these rare cases.

            I lowever, the issue is whether or not Stratum 1, Sample #33 should be included in Stratum 1 at all,
            when Stratum 1 consists of 60 samples categorized as "inpatient shOJi stays." It is Princeton's
            understanding that inpatient short stays are cases where the patient was either: ( 1) admitted and
            discharged on the same day, or (2) admitted and discharged the day after admission. When Princeton
            questioned the inclusion of this type of error being combined with the 11 claims related to inpatient
            versus outpatient status, the OIG responded in an email as follows: "I discussed this situation with our
            stats staff, and they explained that the strata were detennined by the type of claim and not the type of
            error. Therefore since Sample #33 was correctly classified as a short stay claim, it is statistically valid
            to include Sample #33 in our results." 9 However, using the patient control number supplied by the OIG
            in its original documents, Sample #33 was found to have had a length of stay of five days. Therefore,
            Stratum 1, Sample #33 is not a short stay.

            Though Princeton agrees with the OIG with respect to the overpayment of $3171, it disagrees with its
            inclusion in Stratum # 1 because it does not meet the stratum criteria.

                 VI. 	      MANUFACTURER CREDIT FOR A REPLACED MEDICAL DEVICE NOT
                            OBTAINED

            Princeton agrees with the OIG findings of one (1) case of a missed device credit from the 32 cases in
            the sample, resulting in a potential overpayment of$5203. Please note that Princeton did not receive a
            credit from the manufacturer; nevertheless, it acknowledges the duty to apply for any potential credits .


            9 OIG email to BHS Director, Fiscal integrity, 08/02/2013, subject: "A-04-12-00084."


                                                                                                                          9

Medicare Compliance Review ofPrinceton Baptist Medical Center (A-04-12-00084)                                       24
           The interdepartmental communication which supported coding the claim with the correct codes and
           modifiers was not optimal, and thus staff did not always know when a device credit was possible.
           Princeton has developed an interdisciplinary team to refine and strengthen the existing process to
           communicate when a device has been replaced to all appropriate parties including the party sourcing the
           device, persons returning the device for manufacturing instructions, and communicating the percentage
           and amount of any credits received to billing. With respect to corrective actions, the hospital will
           continue to request manufacturer credits when appropriate.

                VII. 	    INCORRECTLY BILLED HEALTHCARE COMMON PROCEDURE CODING
                          SYSTEM (HCPCS) CODES

           The OIG auditors identifi.ed two (2) cases that contained incorrect HCPCS codes when reviewing the 32
           inpatient and outpatient medical device cases from Stratum 2. Princeton agrees with the OIG findings
           which resulted in a $1700 overpayment. Princeton will continue to provide ongoing education and
           audits to minimize human e1ror in the billing process.

                VIII. 	   PRINCETON OBJECTS TO THE APPLICATION OF EXTRAPOLATION

                     A. 	 Princeton does not have adequate information to fully respond to the OIG d r aft
                          report.

                Princeton does not have adequate information to re spond fully to the OIG draft report because it is
                missing infonnation related to the population, the stratitication design, the application of sampling
                to the strata, the extrapolation calculations, and the credentials of the statistician who designed the
                model During the closing conference in May 2013, OIG officials stated that the details of the
                statistical methodology would be disclosed as part of the draft report. Princeton respectfully
                requests that the OIG provide: (1) a detailed narrative explanation of the sampling process and
                extrapolation estimates, (2) calculations used to create the stratification model, the hierarchy, and
                the underlying theory in support thereof, (3) the calculations used to determine the extrapolated
                estimated overpayment by stratum including, but not limited to, the dollar amounts applied, the
                error rates used, and precision points, (4) list of the patients included in each stratum population
                (sampling fi·ame), and (5) the credentials of the statistician who designed the modeL Because the
                application and calculation of extrapolation estimates is not an investigatory practice, there is no
                 need to preserve the technique for future audits.

                     I. No detail is provided rclntcu to the statistical desig n mt:thodology of the stratum hierarchy
                     and sample integrity.

                              When using a stratified random sample to extrapolate an estimated (predicted) result
                              to a population, the stratified sample must be homogenous within the stratum and
                              heterogeneous among the strata in order for extrapolation to be reliable. As explained
                              in The Essentials of Survey Sampling : "The principle of stratitication which is as
                              follows: The Stratification should be so implemented that (i) variate-values should be




                                                                                                                         10

Medicare Compliance Review ofPrinceton Baptist Medical Center (A-04-12-00084)                                       25
                                 as alike as possible among themselves within each stratum while (ii) the strata
                                 themselves should be as unlike as possible relative to each other ... " 10

                                 It is clear that several Princeton sample cases met the criteria of more than one of the
                                 strata. The OIG used a hierarchy to assign claims to a particular stratum when the
                                 claim met more than one criteria. There is no information provided in the draft report
                                 to describe the methodology used to develop the hierarchy, nor any explanation of
                                 how the hierarchy is incorporated into the sampling frame and stratification model or
                                 the applicable theorem to support it. Without more quantitative detail, the strata do
                                 not appear sufficiently discrete to reduce variability and increase outcome reliability.

                                  Further, as outlined in Section V ., there is a claim with a five day length of stay that is
                                  included in Stratum 1 which is categorized as a claim type "Short Stay." The
                                  inclusion of this claim calls into question the homogeneity of the sample when the
                                  sampled claim exceeds the one day length of stay that defines the stratum. If the
                                  stratum is not sufficiently homogenous or there was an error in picking the population
                                  and/or samples, then the integrity of the extrapolation is degraded .

                      2. Stratification must be designed and sampled appropriately to be reliable.

                                  It is unclear why stratification was used when the strata means are so similar.
                                  Stratification is used by statisticians to reduce variability and increase the reliability
                                  of results. Stratification is employed to improve efficiency in the estimation, which is
                                  achieved by producing groups that have different means in order to obtain distinct,
                                  stratum-based estimates ofthe variance/precision. In this audit, the first and third
                                  strata have similar mean payment amounts, which calls into question the reason why
                                  stratification was used. Princeton needs additional information regarding the
                                  stratification process, including a listing of the universe, and the means and the
                                  standard deviations of the strata in order to fully respond to the draft report.

                                  Further, it is unclear when and how the sampling was done. The only information
                                  regarding how the samples were drawn from the strata is found in the draft report,
                                  page 11: "We consecutively numbered the claims within strata one and three. After
                                  generating the random numbers for these strata, we selected the corresponding frame
                                  items. We selected all claims in stratum two." It is unclear if Stratum 1 and Stratum 3
                                  were consecutively numbered or if there were two sets of consecutive munbers, one
                                  for each stratum. Further, at least one case was moved between Stratum 2 and
                                  Stratum 3 as discussed in Section IV. It is unknown if this case was used in
                                  determining the extrapolation calculation error rate and the calculation of dollars for
                                  Stratum 3 because the charts in the appendices do not match the text of the report.

                                  Moreover, there is no information provided in the draft report related to the derivation
                                  of the 139 sample size, nor when or how the number of samples were allocated to

            1
             °Chaudhuri, Arijit, Essentials of Survey Sampling, Kindle Lac. 842, PHI Private Learning Limited, New Dehli, 2010.
                                                                                                                                  11

Medicare Compliance Review ofPrinceton Baptist Medical Center (A-04-12-00084)                                                     26
                             Stratum I and Stratum 3. Though it is apparent that neither equal nor proportionate
                             sampling were used, the draft report does not state whether optimum allocation
                             sampling or some other statistical theory was used. Therefore, Princeton requests that
                             the OIG provide detailed infonnation related to sampling methodology and allocation
                             of the samples.

                    3. Princeton is unawaJ"c of the legal authorit y or quantitative justification for the imposition   or
                    extrapolation when a threshold of six errors is reached within a stratum.

                    As noted in Section IV, the OIG stated that it would apply extrapolation if errors were found in
                    six or more cases. Princeton is unaware of the legal authority or quantitative justification for
                    the imposition of extrapolation when a threshold of six errors is reached within a stratum.
                    Princeton requests that the OIG provide an explanation as to the use of this threshold.

                Princeton does not have enough information to agree or disagree with the OIG's assertion
                that extrapolation is statistically valid. Therefore, Princeton requests all work papers
                including but not limited to the information requested above, documents, emails,
                spreadsheets, seed nu mbers and reference materials that were used in creating or related to:
                population selection and the narrowing thereof, the sampling frame, sample selection,
                standard deviations, precision points, and extrapolation calculations as well as the
                information requested above (VIII.) so that Princeton can more properly respond to the draft
                report. Princeton respectfully requests the right to amend its response to the draft after the
                requested information is provided.

                    B. Extrapolation potentially violates Princeton's due process rights.

                Extrapolation potentially violates Princeton's due process rights because extrapolation exposes
                Princeton to duplicate payments and precludes Princeton's right to appeal denied cases.
                Extrapolation subjects Princeton to duplicate overpayments because: (1) to date, Princeton has not
                received a list ofthc patients in the population to verify that other government auditors have not
                reviewed the same claims, and (2) because without the list of all patients in the population,
                Princeton is denied the equitable defense of Res Judicata should government auditors seek tore­
                review the same claims in the future. As part of building the audit sampling frame, the OIG
                excluded claims that were under RAC review at the time the sampling frame was built. (The draft
                rcpott does not indicate the date that the sampling frame was created.) However, RAC or other
                government auditors could have requested records that were included in this audit. In another audit
                report, the OIG responded to a hospital with similar concems by suggesting that the hospital send a
                list of all the claims that are under RAC review from the time frame of the audit to the OIG.
                However, hospitals now face scrutiny of the same records from the OIG, RAC, MAC, ZPICs and
                possibly others. Even if Princeton compiled a list of claims audited by all government and contract
                government auditors for 20 l 0 and 2011, the list would be out of date as soon as it was submitted.
                The hospital would have to send almost daily updates to the OIG to cross reference against the
                population list.



                                                                                                                         12

Medicare Compliance Review ofPrinceton Baptist Medical Center (A-04-12-00084)                                           27
                Because submitting ongoing reports to the OIG regarding the activities of other auditors is
                burdensome and wasteful, Princeton requests that the OIG provide a list of the 1191 patients in the
                population.

                Further, extrapolation denies Princeton the opportunity to appeal denied claims. It is important to
                note that the eleven claims that are disputed in this audit were evaluated by non-physician
                reviewers at the MAC and thus are currently denials. Because the audit is not complete until a
                binding determination of error is made on a case by case basis, these claims are not actual errors
                until fully adjudicated though an appeals process. However, the imposition of extrapolation would
                deny the hospital procedural due process rights to appeal cases based on the merits because by its
                nature, extrapolation estimates an error to a population rather than to identify specific cases.

                    C. Princeton objects to the use of extrapolation as unjust and fundamentally unfair.

                The Medicare Prescription Drug Improvement and Modemization Act of2003 (42 USC§ 1395
                ddd (f)(3)) provides very limited circumstances under which CMS or its contractors may
                extrapolate results for overpayment purposes. As is set forth below, none of the circumstances are
                at issue in this audit.

                FUither, the CMS Program Integrity Manual instructs that before using extrapolation to determine
                overpayment amounts, there must be a determination of sustained high level of payment error or
                documentation that educational intervention has failed to correct the payment error. There has been
                no such finding in this case. Even if one uses Princeton's alleged enor rate of 15.83%, the OIG has
                published numerous repmts this year where hospitals included in this same audit initiative were
                found to have had alleged error rates in excess of 50%, and, in at least two audits, where the alleged
                error rate exceeded 70%. Nonetheless, the OIG chose not to extrapolate in those cases. Thus, the
                OIG should, at the very least, remain consistent in its application of the high error rate criteria
                before imposing the punitive measure of extrapolation. Due process and fair treatment under the
                law is called into question when providers who had quadruple the error rate alleged in this report
                are not found to have a" high error rate," or were not for some other undocumented reason subject
                to extrapolation.

                The OIG has noted in other recently issued audit reports that extrapolation has been applied in
                some cases and not others because the audit methods have improved. However, that explanation
                does not explain the seemingly disparate treatment of hospitals in different regions. During
                previous OIG audits conducted during this initiative, the OIG identified multiple risk areas by
                error type to use during the audit. By using claim types, rather than error type as strata, the OIG
                has created larger strata and therefore a higher probability of exceeding the six-error threshold as
                set by the OIG in our audit. Princeton asserts that the OIG should have identified all of the risk
                areas that were audited at Princeton separately as it has in previous audits (patient status,
                readmissions, medical device credits, HCPCS, and DRG coding). This would have resulted in
                lower enor rates per area. Instead, it appears that the cases were artificially bundled into three risk
                categories containing multiple error types in order to meet extrapolation minimum thresholds. An
                example of this occuned when the single discharge and readmission during the same day claim was


                                                                                                                     13

Medicare Compliance Review ofPrinceton Baptist Medical Center (A-04-12-00084)                                      28
               added to the inpatient versus outpatient status errors. Different types of alleged errors should not
               be added to together to make a larger stratum. This is fundamentally unfair and logically flawed.

               Because Princeton's error rate, as calculated by the OIG, is one of the lowest published rates found
               during this audit initiative, Princeton strongly objects to the imposition of extrapolation and
               respectfully requests that the OIG remove all extrapolated overpayment recommendations from its
               final report.




                                                                                                                       14

Medicare Compliance Review ofPrinceton Baptist Medical Center (A-04-12-00084)                                         29
                 IX.        SUMMARY

            Princeton concurs in part and objects in part to the OIG findings. Princeton asserts that the total errors
            by category are as follows:

            Table4
                           ERROR TYPE                ERRORS                OVERPAYMENTS NET OF PART B OFFSETS



            Inpatient Short Stays                       2                                 $7836


            DRG Coding from Stratum 3                   4                                $13,149


            DRG Coding from Stratum 2                   1                                $14,085


            Same day discharge readmission              1                                 $3171


            Medkal device credits                       1                                 $5203


            HCPCS Coding                                2                                  $1700


            Estimated Total Overpayments               ,U                                $45.144




            Because of: (1) CMS' acknowledgment of lack of clarity in the inpatient versus outpatient status rules;
            (2) the serious clinical disagreements between the OIG and Princeton as to medical necessity of
            inpatient services; (3) the lack of application of Part B offsets to denied Part A claims; (4) the failure
            to re-review the supporting coding clinic guidelines; (5) the information still not provided related to the
            statistical methodology and calculations; and (6) the huge variation in the imposition of extrapolation
            among facilities, Princeton Baptist Medical Center respectfully requests that the OIG amend the draft
            report recommendations to remove extrapolation completely and decrease the overpayment amounts to
            the $45,144 noted above.

            Thank you in advance for your consideration of our response.




            Keith Parrott
            President and CEO
            Baptist Health System, Inc.




                                                                                                                     15

Medicare Compliance Review ofPrinceton Baptist Medical Center (A-04-12-00084)                                       30
                                                                                 16
Medicare Compliance Review ofPrinceton Baptist Medical Center (A-04-12-00084)   31
                                                                                 17

Medicare Compliance Review ofPrinceton Baptist Medical Center (A-04-12-00084)   32
